Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-4053
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

)
)
)

DARELL ANTHONY ANDERSON,

)
)
)
)

Defendant-Appellant.

)
)

v.

Apr 20,2021
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF
OHIO

ORDER
Before: DAUGHTREY, McKEAGUE, and THAPAR, Circuit Judges.
Darell Anthony Anderson, a federal prisoner, appeals his judgment of conviction and
sentence. This case has been referred to a panel of the court that, upon examination, unanimously
agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
In the midst of a jury trial, Anderson pleaded guilty to possession with intent to distribute
heroin, fentanyl, methamphetamine, cocaine, cocaine base, and marijuana, in violation of
21 U.S.C. § 841(a)(1), and possession of a firearm in furtherance of a drug-trafficking crime, in
violation of 18 U.S.C. § 924(c), with the benefit of a written Federal Rule of Criminal Procedure
11(c)(1)(C) plea agreement. He subsequently filed a motion to withdraw his guilty plea, which
the district court denied. The district court sentenced Anderson, in accordance with the plea
agreement, to serve a total of 240 months in prison—180 months for the drug conviction and 60
months for the firearm conviction, to run consecutively—followed by five years of supervised
release and imposed a $5,000 fine. Anderson filed a timely appeal.

(2 of 11)

Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 2

No. 20-4053
-2Anderson’s counsel has moved to withdraw and has filed a brief pursuant to Anders v.
California, 386 U.S. 738 (1967). After reviewing the record, counsel has concluded that there are
no meritorious grounds for appeal. As required under Anders, counsel addresses “anything in the
record that might arguably support the appeal.” Id. at 744. Counsel discusses the validity of
Anderson’s appeal waiver, the validity of his guilty plea, the denial of his motion to withdraw his
guilty plea, and the reasonableness of his sentence. Anderson was notified of his right to respond
to counsel’s Anders brief and has filed a response. In his response, Anderson argues that he was
denied effective assistance of trial counsel and that the prosecutor engaged in misconduct.
Counsel has filed an acceptable Anders brief. Counsel indicates that he has carefully
reviewed the entire record and has raised the only issues deemed arguable. He properly concludes
that neither those issues nor any other issue present on the record would support an appeal. See
Anders, 386 U.S. at 744.
I.
A.
“We ‘review[ ] the question of whether a defendant waived his right to appeal his sentence
in a valid plea agreement de novoUnited States v. Pirosko, 787 F.3d 358, 370 (6th Cir. 2015)
(quoting United States v. Smith, 344 F.3d 479, 483 (6th Cir. 2003)). A waiver provision in a plea
agreement is binding as long as it was made knowingly and voluntarily. United States v. Toth, 668
F.3d 374, 378 (6th Cir. 2012).
Anderson’s plea agreement contained an appeal-waiver provision. Under that provision,
Anderson waived “the right to appeal the conviction and sentence imposed, except if the sentence
imposed exceeds the statutory maximum.” The appeal-waiver provision did not prohibit Anderson
from pursuing any ineffective-assistance-of-counsel or prosecutorial-misconduct claims.
Anderson acknowledged that he had read the plea agreement, understood it, voluntarily agreed to
its terms, had not been forced, threatened, or promised anything outside of the agreement in
exchange for his guilty plea, had discussed his case and his decision to plead guilty with counsel,
and was satisfied with counsel’s advice and representation. Above his signature, Anderson

(3 of 11)

Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 3

No. 20-4053

-3certified that he had reviewed the plea agreement with counsel and was satisfied with counsel’s
assistance.
During the change-of-plea hearing, the government outlined the terms of the plea
agreement on the record, including the appeal-waiver provision. The district court reviewed the
appeal-waiver provision and ensured that Anderson understood it. Anderson also confirmed that
his plea was voluntary and not the result of any coercion, force, threats, or promises outside of the
plea agreement. Nothing in the record suggests that Anderson’s assent to the appeal-waiver
provision was unknowing or involuntary. Although Anderson retained the right to appeal his
convictions and sentences if his sentences exceeded the statutory maximums, that circumstance is
not present here. Anderson was sentenced to serve 180 months in prison for the drug conviction
and 60 months in prison for the firearm conviction—below the statutory maximum sentences of
life in prison for those offenses.

See 21 U.S.C. § 841(b)(1)(A); 18 U.S.C. § 924(c)(1)(A).

Moreover, a thorough review of the record reveals no basis for pursuing any ineffective-assistanceof-counsel or prosecutorial-misconduct claims at this time. Thus, the appeal-waiver provision in
the plea agreement is enforceable and, assuming that the guilty plea itself is valid, Anderson may
not appeal his convictions and sentences.
B.
A guilty plea is valid if it is entered knowingly, voluntarily, and intelligently. Brady v.
United States, 397 U.S. 742, 748 (1970); Boykin v. Alabama, 395 U.S. 238, 242-44 (1969). The
validity of a guilty plea is assessed by reviewing the totality of the circumstances surrounding the
plea. Brady, 397 U.S. at 749. To be valid, a guilty plea must reflect “sufficient awareness of the
relevant circumstances and likely consequences” of the plea. Id. at 748 (footnote omitted).
During the change-of-plea hearing, the district court, in accordance with Rule 11, advised
Anderson that he did not have to enter a guilty plea and could continue with his jury trial that was
in progress. See Fed. R. Crim. P. 11(b)(1)(B), (C). The district court informed Anderson that he
had the right to assistance of counsel through every stage of the case and other trial rights but that
he would be waiving those rights by pleading guilty. See Fed. R. Crim. P. 1 l(b)(l)(D)-(F).

(4 of 11)

Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 4

(5 of 11)

No. 20-4053
-4Anderson expressed his understanding. The government informed Anderson of the charges to
which he was pleading guilty. The district court advised Anderson of the mandatory minimum
and maximum penalties that he faced, including imprisonment, fine, and supervised release, and
that a guilty plea also subjected him to other consequences, such as the loss of various civil rights.
The district court also advised Anderson that he would be required to pay a $100 special
assessment for each conviction and reminded him that he had agreed to forfeit a particular firearm
in his plea agreement. See Fed. R. Crim. P. 1 l(b)(l)(G)-(J), (L). Anderson stated that he
understood the charged crimes and possible penalties.

»

The district court informed Anderson that an advisory sentencing guidelines range would
i

be calculated and that the court would consider that range before imposing sentence. See Fed. R.
Crim. P. ll(b)(l)(M). Anderson expressed his understanding. The district court ensured that
Anderson understood the appeal-waiver provision contained in his plea agreement. See Fed. R.
Crim. P. ll(b)(l)(N).
Anderson confirmed that he had discussed his case and his decision to plead guilty with
his attorney and was satisfied with counsel’s advice and representation. He stated that he was not
under the influence of any prescription medication. Anderson also stated that his guilty plea was
voluntary and not the result of any coercion, force, threats, or promises outside of the plea
agreement. See Fed. R. Crim. P. 11(b)(2). The district court set forth the factual basis, as stated
in the statement of facts attached to Anderson’s plea agreement, and asked Anderson if his
acknowledgement of those facts was true and accurate. Anderson responded affirmatively. See
Fed. R. Crim. P. 11(b)(3).
Anderson was “sworn” but the district court did not advise him that any false statement
made while under oath could subject him to prosecution for perjury or making a false statement.
See Fed. R. Crim. P. 11(b)(1)(A). But Anderson does not allege that he has been threatened with
prosecution for perjury or making a false statement. Anderson did not raise any objections
concerning the plea proceedings before the district court, and there is no indication that his
substantial rights were affected by the district court’s failure to address any issues. See United

Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 5

No. 20-4053
-5States v. Dominguez Benitez, 542 U.S. .74,76 (2004). Thus, under the totality of the circumstances,
the record reflects a valid guilty plea. See Brady, 397 U.S. at 748-49; Boykin, 395 U.S. at 242-

44.
C.
A valid, unconditional guilty plea waives all “constitutional violations occurring prior to a
plea of guilty once the defendant enters his plea” unless expressly preserved in a plea agreement
or at a plea hearing. United States v. Lalonde, 509 F.3d 750, 757 (6th Cir. 2007); see also Tollett
v. Henderson, 411 U.S. 258, 267 (1973). Anderson entered an unconditional guilty plea without
reserving the right to appeal any pre-plea issues.

Therefore, Anderson waived his right to

challenge any unpreserved pre-plea issues. See United States v. Abdulmutallab, 739 F.3d 891, 904
(6th Cir. 2014).
D.
“We review for abuse of discretion the district court’s denial of a motion to withdraw a
guilty plea.” United States v. Catchings, 708 F.3d 710, 717 (6th Cir. 2013). “A district court
abuses its discretion where it relies on clearly erroneous findings of fact, or when it improperly
applies the law or uses an erroneous legal standard.” Id. (quoting United States v. Haygood, 549
F.3d 1049, 1052 (6th Cir. 2008)).
When a district court has accepted a guilty plea, the plea may not be withdrawn before
sentencing unless the defendant demonstrates “a fair and just reason for requesting the
withdrawal.” Fed. R. Crim. P. 11 (d)(2)(B). The purpose of permitting a defendant to withdraw a
guilty plea is “to allow a hastily entered plea made with unsure heart and confused mind to be
undone, not to allow a defendant to make a tactical decision to enter a plea, wait several weeks,
and then obtain a withdrawal if he believes he made a bad choice in pleading guilty.” United States
v. Walden, 625 F.3d 961, 965 (6th Cir. 2010) (quoting United States v. Ellis, 470 F.3d 275, 28081 (6th Cir. 2006)). We have identified seven factors to consider when evaluating a motion to
withdraw a guilty plea:
(1) the amount of time that elapsed between the plea and the motion to withdraw it;
(2) the presence (or absence) of a valid reason for the failure to move for withdrawal

(6 of 11)

Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 6

No. 20-4053
-6earlier in the proceedings; (3) whether the defendant has asserted or maintained his
innocence; (4) the circumstances underlying the entry of the guilty plea; (5) the
defendant’s nature and background; (6) the degree to which the defendant has had
prior experience with the criminal justice system; and (7) potential prejudice to the
government if the motion to withdraw is granted.
United States v. Goddard, 638 F.3d 490, 494 (6th Cir. 2011) (quoting United States v. Bashara,
27 F.3d 1174, 1181 (6th Cir. 1994)). “These factors represent ‘a general, non-exclusive list and
no one factor is controlling.”’ Id. (quoting United States v. Bazzi, 94 F.3d 1025, 1027 (6th Cir.
1996)).
Anderson pleaded guilty on February 28, 2020, during his jury trial, and the district court
accepted his plea and found him guilty that same day. Almost three months later, on May 22,
2020, Anderson filed a pro se motion to withdraw his guilty plea, which he later supplemented.
Although he was represented by counsel, the district court addressed Anderson’s pro se motion to
withdraw his guilty plea at the sentencing hearing and denied it.
Anderson did not offer a fair and just reason to withdraw his guilty plea. First, Anderson’s
motion to withdraw, filed almost three months after his guilty plea was entered, was not promptly
filed. See United States v. Benton, 639 F.3d 723, 727 (6th Cir. 2011) (noting that “[t]his Court has
declined to allow plea withdrawal when intervening time periods were as brief as one month”).
Second, Anderson did not assert his innocence in his motion to withdraw and supplement; instead,
he asserted ineffective-assistance-of-counsel claims. Moreover, at the change-of-plea hearing, he
admitted his guilt of the drug and firearm offenses and confirmed the factual basis supporting his
guilty plea.
Third, the change-of-plea transcript reveals that Anderson’s guilty plea was voluntary and
free of any coercion, force, threats, or promises outside of the plea agreement. Fourth, the record
reveals that Anderson has a twelfth-grade education, earned his GED, and was 43 years old. Fifth,
the record reflects that Anderson had prior experience with the criminal justice system as
evidenced by his extensive criminal history, including a criminal offense for which he was serving
supervised release when the instant offenses were committed. Sixth, granting the motion to
withdraw potentially would have prejudiced the government given that a jury trial was in progress

(7 of 11)

Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 7

No. 20-4053

-7when Anderson entered his guilty plea. Under these circumstances, the district court did not abuse
its discretion when it denied Anderson’s motion to withdraw his guilty plea.
II.
A.
In his response to counsel’s Anders brief, Anderson asserts that he was denied effective
assistance of trial counsel because counsel did not: (1) disclose allegedly exculpatory evidence to
the prosecution that he had on his Samsung cell phone showing security camera footage of his
wife and Officer Bookman having “relations” the day before his residence was searched; (2)
challenge his arrest; (3) challenge the search of his property; (4) “challenge the illegal search and
seizure of an [A]pple [I]-phone” that allegedly disclosed a confiscated Samsung cell phone
containing exculpatory evidence; (5) “review and disclose [his] home [surveillance] system,”
which allegedly was exculpatory; (6) challenge “discrepancies in the drug weights and the listed
items seized”; (7) “challenge the facts of the criminal complaint contradicting the search and
[seizure] warrant”; (8) “challenge the delayed indictment” and move to dismiss it under 18 U.S.C.
§ 3162(a)(1) and did not contest the forfeiture of his property; (9) “challenge the arraignment of
the indictment”; (10) “file a motion to dismiss under [18 U.S.C.] § 3162, for failing to bring [him]
to trial within the 70 day time period established by [statute]”; (11) challenge the indictments “for
failing to disclose” the identity of the co-conspirator and for being duplicitous and multiplicitous;
and (12) “raise on appeal that [his] plea agreement was violated” because the sentence imposed
exceeds the stipulated sentence and that his guilty plea to the firearm offense was perjurious
because a government witness testified that the firearm “was sold to and purchased by” his wife.
We decline to consider at this time all but Anderson’s twelfth claim of ineffective
assistance of trial counsel. Ineffective-assistance-of-counsel claims generally are disfavored on
direct appeal and are brought more appropriately in a 28 U.S.C. § 2255 motion to vacate, set aside,
or correct sentence. Massaro v. United States, 538 U.S. 500, 504-05 (2003); United States v.
Walden, 625 F.3d 961, 967 (6th Cir. 2010). This is so because the record usually is not developed
adequately and is not complete enough at the time of the direct appeal to permit review of an

(8 of 11)

Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 8

No. 20-4053
-8ineffective-assistance-of-counsel claim. Massaro, 538 U.S. at 504-05; Walden, 625 F.3d at 967.
Because the existing record does not demonstrate any apparent errors and is not developed
sufficiently as to the issues raised, except for his twelfth claim, Anderson’s ineffective-assistanceof-trial-counsel claims are premature. See United States v. Wells, 623 F.3d 332, 348 (6th Cir.
2010).
Anderson’s twelfth ineffective-assistance-of-trial-counsel claim faults counsel for failing
to argue on appeal that his plea agreement was violated because the sentence imposed was greater
than the parties’ stipulated sentence of 240 months in prison. He argues that he was sentenced to
serve 240 months for the offenses of conviction in this case and a consecutive 60-month sentence
for violating his supervised release in a separate case, resulting in a total sentence of 300 months.
He also argues that he committed perjury by pleading guilty to the firearm offense because he did
not buy the firearm that is the subject of that offense and pleaded guilty under duress. This claim
is belied by the record.
First, the parties stipulated to a 240-month sentence for the offenses of conviction in this
case. The parties also agreed that “any sentence imposed in supervised release violation case
number 2:12-CR-13(1) shall be served concurrent to the sentence imposed” in this case. The
district court imposed the agreed-upon 240-month sentence in this case, and in the supervisedrelease-violation case, the district court imposed a 30-month sentence to run concurrently with the
sentence imposed in this case. Anderson did not receive a total sentence of 300 months for this
case and the supervised-release-violation case.
Second, the record supports Anderson’s valid guilty plea to the firearm-possession offense.
In the factual basis supporting Anderson’s plea, he admitted that he “possessed multiple loaded
firearms, which were recovered in close proximity to drugs, drug paraphernalia, and currency.”
At the change-of-plea hearing, Anderson confirmed that the factual basis as set forth in the plea
agreement was true and accurate. Notably, it could be illegal for Anderson to possess a firearm
even if he did not purchase it.

(9 of 11)

Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 9

No. 20-4053
-9Third, at the change-of-plea hearing, Anderson stated that his guilty plea was voluntary
and not the result of any coercion, force, threats, or promises outside of the plea agreement. There
is nothing in the record to suggest otherwise. Anderson’s twelfth ineffective-assistance-of-trialcounsel claim, therefore, does not present an appealable issue.
B.
Anderson asserts that the prosecutor engaged in misconduct by: (1) introducing false
testimony, presenting inadmissible evidence obtained from an illegal search, and failing “to
disclose [his] home [surveillance] system” that allegedly contained evidence that would exonerate
him and show police misconduct; (2) filing “duplicitous and [multiplicitous] indictments”; and (3)
prosecuting this case when it lacked jurisdiction to do so. None of these arguments raises
appealable issues.
First, any error in the admission of testimony or evidence at trial and any alleged defects
in the indictment were waived when Anderson entered a valid, unconditional guilty plea in the
midst of trial, reserving the right to raise only ineffective-assistance-of-counsel and prosecutorialmisconduct claims on appeal. See Tollett, 411 U.S. at 267; Lalonde, 509 F.3d at 757. Notably,
Anderson did file a pre-plea motion to dismiss count four of the indictment as multiplicitous, which
the district court denied, but he waived the right to challenge that issue by pleading guilty.
Moreover, Anderson does not contend that the alleged undisclosed and exculpatory evidence from
his own home security system was in the sole possession of the prosecution. When potentially
exculpatory evidence is not in the sole possession of the prosecution and is available to the defense
through other sources, there is no violation of Brady v. Maryland, 373 U.S. 83, 87 (1963).
Matthews v. Ishee, 486 F.3d 883, 891 (6th Cir. 2007).
Second, Anderson asserts no basis to support his claim that the prosecution lacked
jurisdiction to prosecute this case. The district court had jurisdiction over Anderson’s criminal
prosecution because his indictment charged him with federal crimes in violation of federal laws.
See 18 U.S.C. § 3231. Anderson has asserted no reason why the prosecution could not proceed

(10 of 11)

Case: 20-4053

Document: 19-2

Filed: 04/20/2021

Page: 10

No. 20-4053
-10with the case against him and the district court could not exercise jurisdiction over his criminal
prosecution. Anderson’s prosecutorial-misconduct claims lack merit.
Because Anderson waived the right to appeal his convictions and sentences, we need not
consider the remaining argument raised by counsel. Nevertheless, we have thoroughly reviewed
the record in this case and discovered no error warranting reversal of the district court’s judgment.
Our independent review of the record confirms counsel’s conclusion that there are no issues
of arguable merit present in Anderson’s appeal. Accordingly, we GRANT counsel’s motion to
withdraw and AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(11 of 11)

Case: 2:18-cr-00265-MHW.Doc #: 149 Filed: 09/22/20 Page: 1 of 9 PAG El D #: 844
AO 245B (Rev. 09/19) Judgment in a Criminal Case
Sheet 1

United States District Court
Southern District of Ohio
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA
v.
Darell Anderson

THE DEFENDANT:
El pleaded guilty to counts)

JUDGMENT IN A CRIMINAL CASE
Case Number: 2:16cr265
USM Number: 69951-061
Steven S. Nolder
Defendant’s Attorney

Counts 3 and 4 of the Second Superseding Indictment

□ pleaded nolo contendere to count(s)____________________________________
which was accepted by the court
□ was found guilty on counts)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

Offense Ended

21 U.S.C. §§ 841(a)(1),

Possession with Intent to Distribute Heroin, Fentanyl,

9/20/2018

(b)(1)(A), (bXU(B)and

Methamphetamlne, Cocaine, Cocaine Base, and Marijuana

Count
3

(b)(1)(C)

The defendant is sentenced as provided m pages 2 through
die Sentencing Reform Act of 1984.

8

of this judgment. 'Hie sentence is imposed pursuant to

□ The defendant has been found not guilty on counts)
El Counts)

1, 2 and 5

□ is

El are dismissed on the motion of the United States.

the defendant must notify the court and United States attorney of material changes in economic circumstances.
9/8/2020
Date of Imposition of Judgment

SigjfatuSr^onuSge

Michael H. Watson, United States District Judge
Name and Tide ofJudge

t

Case: 2:18-cr-00265-MHW Doc #: 149 Filed: 09/22/20 Page: 2 of 9 PAGEID #: 845
A0245B(Rev. 09/19) Judgment in a Criminal Case
Sheet 1A
Judgment—Page

2

of

DEFENDANT: Darell Anderson
CASE NUMBER: 2:18cr265

ADDITIONAL COUNTS OF CONVICTION
Title & Section
18 U.S.C.§ 924(c)

Nature of Offense
Possession of a Firearm in Furtherance of a Drug
Trafficking Crime

Offense Ended
9/20/2018

Count
4

a

Case: 2:18-cr-00265-MHW Doc #: 149 Filed: 09/22/20 Page: 3 of 9 PAGEID #: 846
AO 245B (Rev. 09/19) Judgment in Criminal Case
__________________ Sheet 2 — Imprisonment
Judgment—Page

3

of

8

DEFENDANT: Darell Anderson
CASE NUMBER: 2:18cr265

IMPRISONMENT
The defendant is hereby committed to the custody of die Federal Bureau of Prisons to be imprisoned for a
total term of:
180 months as to Count 3; 60 months as to Count 4 to run consecutively.

^ The court makes the following recommendations to the Bureau of Prisons:
The defendant shall participate In the Bureau of Prison's 500 Hour Residential Substance Abuse Treatment Program;
the defendant shall be placed in FCI Milan; the defendant shall participate in a mental health evaluation and/or mental
health counseling at the direction of the BOP; the defendant shall participate in vocational training

2I The defendant is remanded to die custody of the United States Marshal.
□ The defendant shall surrender to the United States Marshal for this district:
□ at

□ a.m.

□ p.m.

on

□ as notified by the United States Marshal.
D The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before 2 pjn. on
□ as notified by the United States Marshal.
□ as nodded by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case: 2:18-cr-00265-MHW Doc #: 149 Filed: 09/22/20 Page: 4 of 9 PAGEID #: 847
AO 245B (Rev. 09/19) Judgment in a Criminal Case
_________________ Sheet 3 — Supervised Release
Judgment—Page

4

of

8

DEFENDANT: Darell Anderson
CASE NUMBER: 2:18cr265

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
5 years as to both counts to run concurrently.

MANDATORY CONDITIONS
1.
2.
3.

4.

5.
6.

7.

You must not commit another federal, state or local (Time.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by die court.
S3 The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse, (check tfapplicable)
□ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution, (check ifapplicable)
SI You must cooperate in the collection of DNA as directed by the probation officer, (check tfapplicable)
□ You must comply with the requirements of die Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense, (check tfexplicable)
□ You must participate in an approved program for domestic violence, (check tfapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Case: 2:18-cr-00265-MHW Doc #: 149 Filed: 09/22/20 Page: 5 of 9 PAGEID #: 848

AO 245B (Rev. 09/19) Judgment in a Criminal Case
___________________ Sheet 3A — Supervised Release
Judgment—Page

5

of

0

DEFENDANT: Darell Anderson
CASE NUMBER: 2:18cr265

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave die federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by die probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
die probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit die probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless die probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before die change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify die probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, die specific purpose of causing bodily injuiy or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact die
person and confirm that you have notified the person about the risk.
You must follow die instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on die conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

Case: 2:18-cr-00265-MHW Doc #: 149 Filed: 09/22/20 Page: 6 of 9 PAGEID #: 849
AO 24SB (Rev. 09/19)

Judgment in a Criminal Case
Sheet 3D — Supervised Release
Judgment—Page

6

of

1

DEFENDANT: Darell Anderson
CASE NUMBER: 2:18cr265

SPECIAL CONDITIONS OF SUPERVISION

i

The defendant shall participate in mental health counseling, as directed by the U.S. Probation Office, until such time as the
defendant is released from the program by the probation office. The defendant will make a co-payment for treatment
services not to exceed $25 per month, which is determined by the defendant’s ability to pay.
The defendant shall participate in a vocational program as directed by the probation officer. Such program may include on
the job training, job readiness training, and skills development training.

Case: 2:18-cr-00265-MHW Doc #: 149 Filed: 09/22/20 Page: 7 of 9 PAGEID #: 850
AO 245B (Rev. 09/19) Judgment in a Criminal Case
___________________ Sheet 5 — Criminal Monetary Penalties
Judgment—Page

7

of

DEFENDANT: Darell Anderson
CASE NUMBER: 2:18cr265

CRIMINAL MONETARY PENALTIES
The defendant must pay die total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
S 200.00

Fine
S 5,000.00

Restitution
S

□ Hie determination of restitution is deferred until
entered after such determination.

JVTA Assessment**

AVAA Assessment*
$

$

. An Amended Judgment in a Criminal Case (AO 245C) will be

□ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
Ifthe defendaiitmakes a partial payment, each pa^ee shallreceive an approximatel^pro^ortioned^paynieiit, unlessspecified otherwise in
before the\jnited States is f^ud.^”1
ever* Pursuan to
§
)* non^e^era^ victims must be paid
Name of Payee

Total Loss***

Restitution Ordered

Priority or Percentage
i

TOTALS

S

0.00

$

0.00

□

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

21

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
2] the interest requirement is waived for the
□ die interest requirement for the

□ fine

gj fine

□ restitution.

□ restitution is modified as follows:

Vicky^and^nd^_Child Pprnopaph^ Victim Assistance Act of 2018, Pub. L. No. 115-299.
***^n^^fo^tiieto^^nomto?losses ar^re^mred under Chapters 109A, 110,110A, and 113A of Title 18 for offenses committed on

»

Case: 2:18-cr-00265-MHW Doc #: 149 Filed: 09/22/20 Page: 8 of 9 PAGEID #: 851
AO 245B (Rev. 09/19) Judgment in a Criminal Case
__________________Sheet 6—Schedule of Payments_____________________________________________ _
Judgment—Page

8

of

8

DEFENDANT: Darefl Anderson
CASE NUMBER: 2:1Bcr265

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

Lump sum payment of $
□
□

5.200.00______ due immediately, balance due

not later than _____________________ , or
in accordance with □ C, □ D,
gf E, or

gj F below; or

B

□ Payment to begin immediately (may be combined with

C

over a period of
(e.g., weekly, monthly, quarterly) installments of $
□ Payment in equal
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., months or years), to commence

D

over a period of
□ Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
(e.g., 30 or 60 days) after release from imprisonment to a
(e.g., months or years), to commence
term of supervision; or

□ D, or

0 F below); or

(e.g., 30 or 60 days) after release from
Payment during the term of supervised release will commence within
60
imprisonment The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

E
F

DC,

g]

Special instructions regarding the payment of criminal monetary penalties:
[x] If the defendant, while incarcerated, Is working in a non-UNICOR or grade 5 UNICOR job, the defendant shall
pay $25.00 per quarter toward defendant's monetary obligation. If working in a grade 1-4 UNICOR job, defendant
shall pay 50% of defendant's monthly pay toward defendant's monetary obligation. Any change in this schedule
shall be made only by order of this Court.

ies, except those payments m
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Case Number
Defendant and Co-Defendant Names
(including defendant number)

Total Amount

Joint and Several
Amount

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

B3

The defendant shall forfeit the defendant’s interest in die following property to the United States:
As described in the plea agreement.

Corresponding Payee,
if appropriate

Payments shalUie ajip^ied in the following ordo": (1) assessment, ^^restitution princij>al, restitution interest, (4) AVAA assessment,
prosecuiion1 and court costs.
^
^

Case: 2:18-cr-00265-MHW Doc #: 149 Filed: 09/22/20 Page: 9 of 9 PAGEID #: 852

IWlHECWnZPmiMiBTOlCTCOCgr
ww na0^nimABncr(voflR)

distribution of

PAGBiSLmrnm ™.
DEFENSE COUNSEL
UNTIED STATES ATTORNEY
U.S.A's FINANCIAL LITIGATION UNIT
UNTIED STATES PROBATION
VNnED STATES PRETRIAL
apTrm!??TATES SENlmciNQ COMMISSION
(WA ^BtoOFMPmONMBNT, THEN ALSO TEE
FEDERAL BUREAU OF PRISONS)
™c^oPccxmvwiu.HAnnMsimamcL*vBWM
OP
AND
wa ascaffliocAnwWAKAmmoM

7SBK2HUCOl£BP££

Additional material
from this filing is
available in the
Clerk's Office.

